HHS/OIG - Audit,"Office of Inspector General's Partnership Plan - New York State Comptroller Report on Duplicate Medicaid Payments to School Districts and Counties for School and Preschool Supportive Health Services Claims,"(A-02-02-01006)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan - New York State Comptroller Report on Duplicate Medicaid Payments
to School Districts and Counties for School and Preschool Supportive Health Services Claims," (A-02-02-01006)
March 4, 2002
Complete
Text of Report is available in PDF format (1.04 MB).  Copies can also be obtained by contacting the Office of
Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review, made by the New York State Office of the State Comptroller (OSC), was part of our partnership efforts with
State auditors to expand audit coverage of the Medicaid program.  The objective of the review was to determine whether
Medicaid payments to school districts, counties, and Article 28 facilities for the 4-year period ended December 31, 2000
were appropriate.  The OSC identified over 7,800 School and Preschool claims totaling $3.4 million in which school
districts and counties billed for services that might have duplicated Article 28 services billed during the same period.  School
district officials confirmed that approximately $1.2 million in claims duplicated Article 28 billings for the same services
and informed the OSC that the duplicated billings occurred because of school district billing errors.  Moreover, the
Medicaid Management Information System did not prevent payment of these bills because the system lacked the computer controls
that might have alerted management to the errors.  The OSC recommended financial adjustments and procedural corrections.